No. 21-290
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------JOSEPH CHAPO, ET AL.,
Petitioners,
v.
JEFFERSON COUNTY PLAN COMMISSION,
Respondent.
---------------------------------♦--------------------------------On Petition For A Writ Of Certiorari
To The Court Of Appeals Of Indiana
---------------------------------♦--------------------------------BRIEF IN OPPOSITION
---------------------------------♦--------------------------------R. PATRICK MAGRATH
Counsel of Record
ALCORN SAGE SCHWARTZ &
MAGRATH, LLP
One West Sixth Street
Madison, Indiana 47250
(812) 273-5230
magrath@advocatelawoffices.com
Counsel for Respondent
Jefferson County Plan Commission
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
QUESTION PRESENTED
Whether review by the United States Supreme
Court is appropriate where the Indiana Courts of
Appeals have affirmed a State trial court decision upholding the actions taken by a County Board of Zoning
Appeals and Plan Commission to enforce a County
Zoning Ordinance on the basis of Indiana State
caselaw which shields the decisions of de facto officers,
whose titles to office are imperfect due to technical
defects, from collateral attack based on the public
policy favoring the protection of the public and the orderly functioning of the government against a property
owner who built and operated a tactical test firing /
shooting range without the necessary permits and in
violation of the County Zoning Ordinance.

ii
TABLE OF CONTENTS
Page
Question Presented .............................................

i

Table of Authorities .............................................

iii

Respondent’s Brief in Opposition ........................

1

Statement of the Case .........................................

1

A.

Factual Background ..................................

1

B.

Procedural Background .............................

6

Reasons for Denying the Petition ........................

9

A.

A State Court Decision Applying the De
Facto Officer Doctrine to Members of a Local Plan Commission is Not an Appropriate
Issue For This Court’s Review .................... 10

B.

The JCBZA’s Application of a General Zoning Ordinance to a New Commercial Public
Shooting Range Does Not Implicate the 2nd
Amendment ................................................ 14

C.

The Chapos’ Petition Fundamentally Misconstrues the “Structural Error” Doctrine
Which is Not Applicable in This Case ......... 19

D.

The Indiana Court’s Application of the De
Facto Officer Rule is a Pure Issue of State
Law and Was a Legally Proper Decision in
This Case .................................................... 21

Conclusion............................................................ 27

iii
TABLE OF AUTHORITIES
Page
CASES
Carty v. State,
421 N.E.2d 1151 (Ind. Ct. App. 1981) .... 11, 21, 22, 25
Chapo v. Jefferson County Plan Commission,
102 N.E.3d 354 (Ind. Ct. App. 2018) .........................6
Ezell v. City of Chicago (Ezell I),
651 F.3d 684 (7th Cir. 2011) ............................ passim
Ezell v. City of Chicago (Ezell II),
846 F.3d 888 (7th Cir. 2017) ............................ passim
Fields v. State,
91 N.E.3d 597 (Ind. Ct. App. 2017) ................... 21, 22
Glidden Co. v. Zdanok,
370 U.S. 530 (1962) .................................................13
Norton v. Shelby County,
118 U.S. 425 (1886) ............................... 12, 13, 23, 24
Parker v. State ex rel. Powell,
32 N.E. 836 (Ind. 1892) ..................................... 22, 26
Ryder v. United States,
515 U.S. 177 (1995) ........................................... 13, 24
Weaver v. Massachusetts,
137 S.Ct. 1899 (2017) ..............................................20
STATUTES AND RULES
Ind. Code Sec. 5-4-1-1.2(c)&(d) ....................... 24, 25, 26
Ind. Code Sec. 36-7-4-208 ...........................................22

iv
TABLE OF AUTHORITIES – Continued
Page
Ind. Code Sec. 36-7-4-1605 ...........................................4
Supreme Court Rule 10 ..............................................24
Supreme Court Rule 10(c) ..........................................12
28 U.S.C. Sec.1257 ......................................................12
28 U.S.C. Sec.1257(a) ............................................ 11, 12

1
RESPONDENT’S BRIEF IN OPPOSITION
The Jefferson County Plan Commission (JCPC)
respectfully opposes the Petition for Writ of Certiorari
to review the decision of the Indiana Supreme Court,
issued May 27, 2021, denying Transfer for discretionary review and the decision of the Indiana Court of Appeals, issued January 22, 2021, affirming the trial
court’s denial of the Petitioner’s Motion for Relief from
Judgement, issued on November 25, 2019, and April
17, 2020.
---------------------------------♦---------------------------------

STATEMENT OF THE CASE
A. Factual Background
In 2012 and 2016 the members of the Jefferson
County Board of Zoning Appeals (JCBZA) and Jefferson County Plan Commission (JCPC) had not filed an
oath of office. The failure to file oaths of office was inadvertent. Each of the members of the JCBZA and
JCPC were authorized to claim their position by virtue
of their status as mandatory members or as appointed
members pursuant to Indiana Code. Each of the members were publicly in possession of the office as demonstrated by the appearance as members and the
inclusion in quorum during public meetings and hearings. Each of the members publicly performed their duties under the color of election or appointment as
demonstrated by their participation in the meetings of
and being counted in the vote of final decisions. The

2
Petitioners, Sherry and Joseph Chapo, do not dispute
these facts.
The Chapos’ Petition misstates the facts by alleging the Jefferson County Zoning Ordinance has not
and does not regulate shooting ranges. (Pet. pg.6). The
JCZO regulates all uses of land. The Jefferson County
Zoning Ordinance 28-4-1(A)(1) requires a landowner to
obtain a permit and comply with all regulations for the
district they are in before using their land. Section 284-2 of the JCZO adopts an official schedule of regulations for each zoning district and explicitly identifies
“each land use” as being either conditional, permitted
or prohibited.
Section 28-5-18, the official schedule of regulations, provides more than 250 categories of use; each
use is identified as a permitted use, a conditional use,
or a prohibited use in each of the district designations.
Category of use number 739 “Other Amusements” is a
conditional use in Agricultural districts. Conditional
uses are defined by the JCZO as “A special use permitted within a district . . . requiring a conditional use permit and approval of the Board of Zoning Appeals . . . ”
Section 28-9-1 requires a landowner seeking to put
their land to a use designated as a conditional use to
“follow the procedures and requirements set forth” in
section 28-9 et al.
Thus, according to the JCZO, before a landowner
may use their property, they must obtain any necessary permit and comply with all district regulations for
the district they are in. “[E]ach land use” is identified

3
in the official schedule of uses table. A landowner in an
Agricultural district is required to obtain a conditional
use permit before using their land for “Category 739:
Other Amusements.” The failure to obtain such a permit prior to said use of the land or going forward with
said use of the land after having been denied such a
permit is a violation of the JCZO and subjects the landowner to the enforcement provisions of the ordinance
which, under section 28-8-23, includes a suit for injunctive relief and imposition of fines.
The Chapos’ Petition misstates the facts by alleging they built and continuously operated a shooting
range on the property from 1991 through the date of
litigation. (Pet. pg.6). The Chapos, are the sole owners
of a piece of property located in Jefferson County, Indiana at 10214 Deputy Pike, Deputy, Indiana, 47230. In
September of 2012, the Chapos filed an Application for
Conditional Use with the JCBZA. The Application
identified the property as “zoned Agricultural” and described the intended use, in part, as:
[I]n the future an Indoor/Outdoor tactical
and test firing range to be marketed to professional marksmen, law enforcement and light
military forces in the region under (Conditional Use #739 in Section 7.00 – official
schedule of district regulations). (emphasis
added).
The Chapos’ application was heard by the JCBZA
on October 2 and November 7 of 2012 and the Chapos
were given an opportunity to be heard on their Application. Between the October 2, 2012, hearing and the

4
November 7, 2012, hearing the Chapos incorporated
their business naming it Deputy Big Shot. Deputy Big
Shot is solely owned and operated by the Chapos and
operates solely on the property owned by the Chapos.
The JCBZA denied Application and issued written
findings of fact expressly finding the Application was
not supported by substantial evidence. The Chapos did
not appeal the JCBZA’s denial of their Application for
Conditional Use within thirty (30) days as provided for
under Ind. Code Sec. 36-7-4-1605.
The Chapos’ Petition misstates the facts by alleging JCBZA denied the Application based solely on
noise. The JCBZA denied the Application because the
Chapos failed to demonstrate by substantial evidence
that their proposed use of the property would “not involve uses, activities, processes, materials, equipment
and conditions of operation that will be detrimental to
any persons, property or the general welfare by reason
of excessive production of traffic, noise, smoke, fumes,
glare or odors” as required for a Conditional Use under
the JCZO Section 28-9-3(G). The Chapos’ Petition misstates the facts by alleging the Jefferson County Zoning Enforcement Officer established there was no law
restricting noise. The Zoning Enforcement Officer is
not a legal authority and was referencing County nuisance noise ordinances. The Chapos’ Petition misstates
the facts by alleging the Chairman of the JCBZA
acknowledged the existence of prior existing shooting
ranges on the Chapos property. The Chairman of the
JCBZA lacks authority to make any final determination unilaterally and was repeating for clarification

5
claims made by the Chapos at the hearing. The Chapos’
Petition misstates the facts by alleging the decision of
the JCBZA was in violation of the Indiana Shooting
Range Protection Act; the statute cited is not relevant
to a newly constructed public commercial tactical test
firing / shooting range.
In March of 2016, the JCBZA received a written
complaint from a property owner in Jefferson County,
Indiana regarding excessive noise at the Chapos’ property. Following an investigation by the zoning enforcement officer, it was discovered the Chapos were in the
process of preparing their land for the “Grand Opening” of their tactical and test firing range, or shooting
range, business. The Chapos were soliciting members
of the public to the property to use the tactical and test
firing range, or shooting range, for a fee. The Chapos
were actively advertising for their tactical and test firing range, shooting range, business. An Order Enforcing the Jefferson County Zoning Ordinance (JCZO)
was issued to the Chapos ordering them to discontinue
operation of the tactical and test firing / shooting
range. The JCPC held a hearing on April 20, 2016, and
the Chapos were given an opportunity to be heard on
the issue of enforcement. The JCPC voted to approve
litigation. The Jefferson County Plan Commission filed
the underlying Complaint in this action.

6
B. Procedural Background
On May 25, 2016, the JCPC filed a complaint
against the Chapos for enforcement of the Jefferson
County Zoning Ordinance (JCZO). The JCPC sought to
enjoin the Chapos’ illegal use of the property as a public commercial tactical test firing / shooting range on
the basis that the use was a Conditional Use in an Agricultural District and the Chapos had been denied a
Conditional Use permit. On January 4, 2017, the trial
court issued an Order granting a preliminary injunction in favor of the JCPC. On May 29, 2018, the Indiana
Court of Appeals issued a decision affirming the trial
court’s grant of a preliminary injunction. Chapo v. Jefferson County Plan Commission, 102 N.E.3d 354 (Ind.
Ct. App. 2018) transfer denied.
On February 1, 2017, the Chapos filed a Motion to
Dismiss arguing, in part, that the JCPC’s action to enforce the JCZO was in violation of the 2nd Amendment
and ultra vires. On July 14, 2017, the JCPC filed a Citation for Contempt because the Chapos were in violation of the preliminary injunction and continuing the
illegal use of the property. On October 17, 2017, the
trial court issued an Order denying the Chapos’ Motion
to Dismiss and granting the JCPC’s Citation for Contempt. (App. pg.1a). The trial court made the following
findings and conclusion relevant to the issue presented:
2.

The Complaint and Amended Complaint
filed by the JCPC concisely states the
JCPC’s standing to bring this action for
enforcement, the JCPC’s claim that the

7
Chapos and Big Shot are putting the
Property to a use that requires a conditional use permit, the JCPC’s claim that
the Chapos and Big Shot have failed to
obtain the required permit prior to proceeding with the use, and the JCPC’s request for an injunction and fines.
3.

On September 17, 2012, Chapos filed an
application for conditional use to include
“in the future and Indoor/Outdoor tactical and test firing range to be marketed
to professional marksmen, law enforcement and light military forces in the region under (Conditional Use under 4739
in Section 7.00 – official schedule of district regulations).”

...
6.

The Chapos, by affidavit and testimony
assert the disputed tactical and test firing
/ shooting range was in existence prior to
1996. The Court finds the Chapos’ assertion not credible in light of the Chapos’
signed petition, registration of Big Shot,
“Grand Opening” advertising and published material.

7.

On November 7, 2012, the Chapos’ application for a conditional use as to the future Indoor/Outdoor tactical and test
firing range was denied.

8.

Neither the Chapos nor Big Shot took any
steps to appeal the BZA decision.

8
9.

There is no evidence that the JCZO is an
ordinance that was enacted with the explicit intent to target or restrict the Second Amendment rights of any individual
or entity.

10. There is no evidence that the JCZO is an
ordinance that has been applied to act as
an explicit or de facto ban on shooting
ranges in Jefferson County.
On April 17, 2020, the trial court issued an Order
Denying the Chapos’ Motion to Correct Error challenging the trial court’s denial of a Motion for Reconsideration. (App. pg.14a). The trial court found the Chapos’
motion to be without merit saying “[a]ny failure of either the 2012 JCBZA or 2016 JCPC to take and deposit
the oath of office is a technical error that does not invalidate their actions.” (App. pg.21a). The trial court
also concluded:
6.

The constitutional claims have previously
been addressed in prior court hearings
and orders. A set of zoning regulations
that have the effect of limiting where a
shooting range may be located do not run
afoul of the protection of the Second
Amendment. Ezell I, Ezell v. City of Chicago, 651 F.3d 684 (7th Cir. 2011); Ezell II,
Ezell v. City of Chicago, 846 F.3d 888 (7th
Cir. 2017). No evidence that the Jefferson
County Zoning Ordinance as applied has
the effect of severely restricting the rights
of the citizens of Jefferson County in firearm use. (App. pg.26a).

9
On January 22, 2021, the Indiana Court of Appeals issued a published decision affirming the trial court’s decision. (App. pg.28a). The Court of Appeals held the
actions of the JCPC, proceeding with litigation to enforce the JCZO, were not subject to collateral attack as
the members of the JCPC were de facto officers. (App.
pg.34a). On May 27, 2021, the Indiana Supreme Court
denied transfer for discretionary review. (App. pg.36a).
---------------------------------♦---------------------------------

REASONS FOR DENYING THE PETITION
As outlined above and further discussed below, the
Chapos disagree with the Indiana Court of Appeals’ determination that the Indiana trial court properly applied the Indiana de facto officer doctrine to members
of an Indiana county Plan Commission. The issue presented is a pure issue of State law and is not an appropriate issue for this Court’s review. To create a federal
question, the Chapos allege the case involves a 2nd
Amendment violation and a “structural error.” The
Chapos fail to provide a cogent argument regarding
the 2nd Amendment and have not demonstrated the
application of a general zoning ordinance in any way
restricts their 2nd Amendment rights. The Chapos
misconstrue the “structural error” doctrine which has
been applied exclusively in criminal matters to make
certain harmless errors the basis for reversal. While
the Indiana courts’ application of the Indiana de facto
officer doctrine is not an appropriate issue for review
by this court, the decision below was decided correctly.
The members of the JCPC were properly appointed to

10
their positions, held their positions in an open manner,
and acted under the color of their appointment. The
technical defect in their qualification due to their failure to file an oath does not subject their actions to collateral attack as they are at least de facto officers. The
Court should deny the Petition for Certiorari.
A. A State Court Decision Applying the De
Facto Officer Doctrine to Members of a Local
Plan Commission is Not an Appropriate Issue for This Court’s Review
The Court should deny review by certiorari because the issue presented is a pure issue of state law
that does not involve a federal question. The Indiana
Court of Appeals’ determination of the application of
the Indiana de facto officer doctrine to the qualifications of local County Plan Commission Members is not
an issue appropriate for this Court’s review. The federal statute outlining the Court’s jurisdiction to review
cases on certiorari does not contemplate review in
cases such as this. The Court’s own rules do not contemplate review in cases such as this. The caselaw
cited by the Chapos does not contemplate review in
cases such as this. This is a state law issue resolved by
a State Court and the Court should deny the Chapos’
Petition for Certiorari.
The Chapos provide two footnotes to their argument where they stipulate the “question presented to
the Supreme Court deals only with the question of
applying the de facto officer doctrine. . . .” (Pet. pg.iii

11
ft.nt.2; pg.4 ft.nt.1). The Indiana Court of Appeals
stated the issue presented below as follows:
[T]he JCPC contends their failure to take and
file the required oath does not mean they
lacked standing because the JCPC members
qualified as ‘de facto’ officers, thereby the
JCPC’s decision to pursue injunctive relief
was legally valid and not subject to collateral
attack. (App. pg.32a).
The Indiana Court of Appeals stated the rule of law
applied in this case as follows:
In Indiana, all that is required to make an officer de facto is that they (1) claim the office,
(2) be in possession of it, and (3) perform its
duties under the color of election or appointment. The authority of a de facto official cannot be collaterally attacked. (App. pg.33a)
(citing Carty v. State, 421 N.E.2d 1151, 1154
(Ind. Ct. App. 1981).
Thus, the issue presented below was an issue of State
interest, the status of the qualification of a local Plan
Commission, and was resolved by State law, Indiana’s
de facto officer doctrine. On its face the decision below
does not involve or even touch upon any Constitutional
or federal law issue.
The Chapos recognize that 28 U.S.C. Sec.1257(a)
limits review by certiorari of the decisions made by the
highest court of a State to circumstances “ . . . where
the validity of a statute of any State is drawn in question on the ground of its being repugnant to the Constitution, treaties, or laws of the United States. . . .”

12
As a threshold matter, the only decision made by the
Indiana Supreme Court was the discretionary decision
to deny transfer of the case to the Court’s docket for
review and decision. Moreover, the Chapos’ Petition
does not challenge any statute of the State of Indiana
as unconstitutional or otherwise contrary to federal
law. The scope of review by certiorari provided by
Sec.1257(a) is not applicable to the Indiana Court’s application of the Indiana de facto officer doctrine to the
qualifications of Indiana Plan Commission members.
The Chapos also recognize Supreme Court Rule
10(c) indicates the character of the reasons the Court
considers for certiorari including “a state court . . . has
decided an important question of federal law . . . or has
decided an important federal question.” Again, the
Chapos’ Petition does not identify any question of federal law or important federal question that was resolved by the Court of Appeals below. The scope of the
character of reasons the Court considers for certiorari
is not applicable to the Indiana Court’s application of
the Indiana de facto officer doctrine to the qualifications of Indiana Plan Commission members.
The Chapos’ reference to case law does not provide an appropriate basis for review by certiorari in
this case. The Chapos cite to Norton v. Shelby County,
118 U.S. 425, 439 (1886) because the Court declined to
review a state law issue. The Norton case was heard
100 years prior to the 1988 passage of 28 U.S.C.
Sec.1257 which was the act of Congress that eliminated appeals as of right form state court decisions to
the United States Supreme Court. Even though the

13
Court’s jurisdiction at the time of Norton, the Court
still declined to review a state court decision that did
not touch upon federal law. The Norton case provides
no support for the Chapos’ Petition.
The Chapos cite to Ryder v. United States, 515 U.S.
177, 180 (1995) where the Court reviewed a challenge
to authority of the members of the Coast Guard Court
of Military Review because the appointments to that
Court violated the Appointments Clause of the United
States Constitution and trespassed on the appointment power of the executive. Id. While it is true that
the Court declined to extend the de facto officer doctrine to the facts before it, the case is fully distinguishable. The issue began within the military court and
rose through the federal appellate courts. The case did
not involve the review of a State Court’s decision on
state law. Additionally, as further discussed below, the
Court did not apply the de facto officer doctrine because the challenge was the legal authority to appoint
the judges to the military court in the first place; it was
not a challenge to some technical defect in the judges’
titles.
Similarly, the Chapos cite Glidden Co. v. Zdanok,
370 U.S. 530, 536 (1962) where the Court reviewed a
challenge to the authority of members of the Court of
Claims at a time when it was not clear whether the
appointment authority for said Court sprang from Article I or Article III of the Constitution. Again, the case
did not involve a State Court decision on state law. And
the Court did not apply the de facto officer doctrine because the challenge was to the legal authority to

14
appoint the judges in the first place; it was not a challenge to some technical defect in the judges’ title.
The Chapos attempt to shoehorn this case into a
federal review posture. Specifically, the Chapos insinuate that in this case the 2nd Amendment and the “structural error” doctrine somehow create issues of federal
interest. As outlined below, there is no viable claim under either the 2nd Amendment or the “structural error”
doctrine in this matter. However, even if some cognizable claim could be made under either of these issues, the
Chapos have not demonstrated any nexus between
those issues and the issue presented, which remains the
Indiana Court of Appeals’ determination of the application of the Indiana de facto officer doctrine to the members of an Indiana county Plan Commission.
B. The JCBZA’s Application of a General Zoning Ordinance to a New Commercial Public
Shooting Range Does Not Implicate the 2nd
Amendment
The Chapos have failed to provide any cogent argument that a 2nd Amendment violation has occurred
or even been threatened in this case. At least eight
times in the Chapos’ Petition for Writ of Certiorari
the Chapos make some variation on the claim that the
Jefferson County Plan Commission has infringed the
Chapos’ 2nd Amendment right to maintain proficiency
of firearms through the use and operation of a shooting
range. (Pet. pg.11, 13, 15, 16, 20, 22, 28, 30). The Chapos
appear to take it as a given that some violation of the

15
2nd Amendment has occurred. However, the Chapos
never provide any cogent argument describing or
demonstrating any such violation. The Court should
deny the Petition because this is a county zoning matter under the law of the State of Indiana that does not
implicate the 2nd Amendment.
The Chapos repetitively cite the 7th Circuit’s decision in Ezell v. City of Chicago, 651 F.3d 684 (7th Cir.
2011) (hereinafter “Ezell I”). The Chapos’ cherry pick
one observation made by the 7th Circuit that “the right
to maintain proficiency in firearm use [is] an important corollary to the meaningful exercise of the core
right to possess firearms for self-defense.” Id. at 708.
The Chapos pointedly ignore the factual and procedural background of Ezell as well as its holding and
the holding in its descendant case Ezell v. City of Chicago, 846 F.3d 888 (7th Cir. 2017) (hereinafter “Ezell
II”). Because the Jefferson County Zoning Ordinance
does not have the intent or effect of banning shooting
ranges, the issues in Ezell I and Ezell II are not implicated and the holdings are not applicable.
The Ezell Court applied an “intermediate scrutiny” to a City of Chicago regulation where a severe
burden on a core 2nd Amendment right requires an extremely strong public interest and a close fit between
the means and the ends, whereas restriction of activities at the margins of the 2nd Amendment, “laws that
regulate rather than restrict,” are more easily justified.
Ezell I, 651 F.3d at 708. The Court applied this level of
scrutiny to a Chicago Ordinance that required a citizen
to have a permit prior to owning any firearm and

16
required a certain amount of training and proficiency
before receiving the permit. Id. at 691. However, the
Ordinance went on to facially prohibit “all shooting
galleries, firearm ranges, or any other place where firearms are discharged.” Id. The challengers to the Ordinance challenged the Ordinance on its face, arguing it
was facially unconstitutional because it completely removed the ability to train with a firearm. The 7th Circuit applied the intermediate scrutiny review to the
complete ban of all firing ranges in Chicago and ruled
that it was an unconstitutional infringement of the
“corollary” 2nd Amendment right. The Ezell I Court expressly pointed out, however, the “City may promulgate zoning and safety regulations governing the
operation of ranges not inconsistent with the 2nd
Amendment rights of its citizens.” Id. at 711.
The case returned to the 7th Circuit because the
City of Chicago, in response to Ezell I, “promulgat[ed]
a host of new regulations governing firing ranges, including zoning restrictions, licensing and operating
rules, construction standards, and environmental requirements.” Ezell II at 891. The primary challenge
was to zoning provisions that specifically restricted the
placement of shooting ranges which had the effect of
limiting the placement of shooting ranges to only about
2.2% of the city’s total acreage. Id. at 894. The Court
agreed with the challenger’s position that the Ordinance acted as a de facto ban. As a result, the Court
applied intermediate scrutiny and found the “package
of ordinances” aimed at regulating shooting ranges
had the effect of banning shooting ranges. However,

17
the Ezell II Court expressly pointed out “Chicago has
room to regulate the construction and operation of firing ranges to address genuine risks to public health
and safety. This includes setting rules about where firing ranges may locate. . . .” Id. at 898.
The Ezell cases dealt first with an absolute ban on
shooting ranges followed by a set of city regulations
that operated as a de facto ban on shooting ranges
within the City of Chicago. The Jefferson County Zoning Ordinances are completely distinguishable from
the regulations at issue in Ezell. The Jefferson County
Zoning Ordinance is an ordinance of general application that does not single out shooting ranges for special
or different treatment. Jefferson County has made no
express or implied effort to eliminate or severely restrict the creation and operation of shooting / tactical
and test firing ranges in Jefferson County. To the contrary, shooting / tactical and test firing ranges are subject to the exact same regulations and permitting
procedures as any other uses in an Agricultural district. Unlike the issue in Ezell, there is no “package” of
restrictions. This is the only Application for a Conditional Use for a shooting range challenged, there is not
a group of shooting range denials demonstrating a severe restriction.
Contrary to the Chapos’ assertion, the trial court
has addressed this exact issue on more than one occasion. (Pet. pg.18). On October 17, 2017, the trial court
issued an Order on the Chapos’ Motion to Dismiss and
the JCPC’s Citation for Contempt. (App. pg.1a). The
trial court found:

18
9.

There is no evidence that the JCZO is an
ordinance that was enacted with the explicit intent to target or restrict the Second Amendment rights of any individual
or entity.

10. There is no evidence that the JCZO is an
ordinance that has been applied to act as
an explicit or de facto ban on shooting
ranges in Jefferson County. (App. pg.5a).
Thus, on April 17, 2020, the trial court was correct
when it issued its decision denying the Chapos’ Motion
to Correct Error finding:
6.

The constitutional claims have previously
been addressed in prior court hearings
and orders. A set of zoning regulations
that have the effect of limiting where a
shooting range may be located do not run
afoul of the protection of the Second
Amendment. Ezell I, Ezell v. City of Chicago, 651 F.3d 684 (7th Cir. 2011); Ezell II,
Ezell v. City of Chicago, 846 F.3d 888 (7th
Cir. 2017). No evidence that the Jefferson
County Zoning Ordinance as applied has
the effect of severely restricting the rights
of the citizens of Jefferson County in firearm use. (App. pg.26a).

The trial court applied the appropriate level of scrutiny to the claims made by the Chapos and found there
was no evidence that the JCZO was on its face or as
applied violated the Chapos rights under the 2nd
Amendment.

19
The Agricultural District where Defendants’ property and business is located does not have any restriction regarding the use of personal firearms on
personal land. The Chapos’ efforts to broadly read the
decision in Ezell I and Ezell II would lead to the absurd
result that every citizen has the right under the 2nd
Amendment to open a public tactical and test firing
range on any land under any circumstances and the
State has no legitimate interest in providing for the
appropriate zoning for such a use. The 2nd Amendment does not forbid a County from regulating the zoning of a shooting range in the same manner it regulates
other uses. The 7th Circuit decisions in Ezell I and
Ezell II expressly recognize the legitimate interest in
regulating zoning. The Chapos have failed to provide
any cogent evidence that Jefferson County’s enforcement of its general zoning ordinance is facially, effectively, or as applied a violation of their 2nd
Amendment freedoms.
C. The Chapos’ Petition Fundamentally Misconstrues the “Structural Error” Doctrine
Which is Not Applicable in This Case
The Chapos, seeming to recognize the weakness in
their effort to convert a local zoning case into a 2nd
Amendment issue, have reached for an alternative
source of Constitutional review. The Chapos have put
their effort into contorting the “structural error doctrine” into some avenue by which this Court would
properly review Indiana’s application of the de facto officer doctrine to a local zoning issue. The Court should

20
deny the Petition because there is not “structural error” in this matter.
In Weaver v. Massachusetts, 137 S.Ct. 1899, 1907
(2017) the Court explained the origin of the “structural
error doctrine.” In criminal trials there is a general
rule that a constitutional error is deemed a “harmless
error” and does not automatically require reversal if
the government can show beyond a reasonable doubt
that the error did not contribute to the conviction. Id.
However, there are certain errors that can occur in the
criminal trial structure that should not be deemed
harmless. Id. “The precise reason why a particular error . . . [is] deemed structural varies in a significant
way from error to error.” Id. at 1908. Some, like the
right to defend oneself, protects the fundamental principle that a defendant must be allowed to make their
own choices even if they do not protect the defendant
from erroneous conviction. Some, like the right to selection of the attorney choice, are just too difficult to
measure the harm of denying. And others, like the failure to be provided an attorney, are fundamentally unfair. Id. All examples of the “structural error doctrine”
demonstrate the purpose “to ensure insistence on certain basic, constitutional guarantees that should define the framework of any criminal trial.” Id. at 1907.
No matter how hard to define, “structural errors”
share four basic components: they are errors that occurs because of constitutional violations, they occur
during trial, they occur in criminal cases, and they
have been determined by the Courts to not be harmless. While is it is unclear precisely what error the

21
Chapos allege falls afoul of the “structural error doctrine” it is apparent the doctrine is not applicable in
this case. First, this case has not yet proceeded to trial.
Second, none of the cited cases applying the structural
error doctrine apply here. Third, and most importantly,
this is not a criminal matter. As further argued above,
there is not cogent argument in this case that Jefferson
County’s application of a general zoning ordinance to
the Chapos’ Application for a permit to locate a shooting range violates or even implicates the Chapos’ 2nd
Amendment rights. However, even if there were some
cogent arguments for constitutional violation, the
“structural error doctrine” does not apply in a civil zoning matter that has not proceeded to trial and that
does not contain any “structural error” recognized by
the Courts.
D. The Indiana Court’s Application of the De
Facto Officer Rule is a Pure Issue of State
Law and Was a Legally Proper Decision in
This Case
When deciding the issue presented, application of
the de facto officer doctrine to county Plan Commission
members who failed to file an oath, the Indiana Court
of Appeals relied primarily on two Indiana Court of
Appeals decisions interpreting that doctrine Fields v.
State, 91 N.E.3d 597 (Ind. Ct. App. 2017) and Carty v.
State, 421 N.E.2d 1151 (Ind. Ct. App. 1981). The Indiana Court of Appeals recognized “[t]his doctrine
springs from the fear of the chaos that would result
from multiple and repetitious suits challenging every

22
action taken by every official whose claim to office
could be open to question and seeks to protect the public by insuring the orderly functioning of the government despite technical defects in title to office.” Fields,
91 N.E.3d at 600. The doctrine has been accepted law
in Indiana for over 100 years and is supported by the
strong public policy that “[t]he public is not to suffer
because those discharging the function of an officer
may have a defective title, or no title at all.” Parker v.
State ex rel. Powell, 32 N.E. 836, 843 (Ind. 1892).
All that is required to establish a person as a de
facto officer is that the person: (1) claim the office (2)
be in possession of the office, and (3) perform its duties
under the color of election or appointment. Fields, 91
N.E.3d at 600 and Carty v. State, 421 N.E.2d 1151,
1154 (Ind. Ct. App. 1981). Each of the members of the
JCPC were authorized to claim their position by virtue
of their status as mandatory members or as appointed
members pursuant to Ind. Code Sec. 36-7-4-208. Each
of the members publicly were in possession of the office
as demonstrated by appearance as members and inclusion to form a quorum during public meetings and
hearings of the JCPC. Each of the members publicly
performed their duties under the color of election or
appointment as demonstrated by their participation in
the meetings of and being counted in the vote of the
JCPC. The Chapos do not dispute the members meet
the three factors of the test laid out above. Indeed, the
Chapos’ express complaint is that the members of the
JCPC claimed and possessed their office, and publicly
pursued official action by filing this cause of action,

23
although they had not taken and deposited the oath of
office.
The Chapos cite to Norton v. Shelby County, 118
U.S. 425 (1886) for the proposition that this Court will
review a State Court’s de facto officer decisions if the
decision rises to the level of conflicting or impairing the
efficacy of some principle of the federal constitution, or
of a federal statute. It is strange that the Chapos cite
to Norton which provides such an extensive recital of
both the purposes and applications of the de facto officer doctrine:
The doctrine which gives validity to acts of officers de facto, whatever defects there may
be in the legality of their appointment of
election, is founded upon considerations of
policy and necessity, for the protection of the
public and individuals whose interests may be
affected thereby. Offices are created for the
benefit of the public, and private parties
are not permitted to inquire into the title
of persons clothed with the evidence of
such offices, and in apparent possession of
their powers and functions. For the good order
and peace of society their authority is to be respected and obeyed until, in some regular
mode prescribed by law, their title is investigated and determined. It is manifest
that endless confusion would result if in every
proceeding before such officers their title
could be called in question. Norton v. Shelby
Cty., 118 U.S. 425, 441–42 (1886). (emphasis
added).

24
However, the Norton Court went on to point out that
“for the existence of a de facto officer, there must be an
office de jure. . . .” Id. at 449. Where no office legally
exists, the pretended officer is merely a usurper, to
whose acts no validity can be attached.” Id. This is a
very succinct distinction between a de facto officer and
a usurper. The former is a person who occupies an office that legally exists and, apart from some technical
defect in their title, legally occupy the office. The latter
is a person who attempts to occupy an office that never
legally existed or has no colorable claim to the office.
The Chapos also cite Ryder v. United States, 515
U.S. 177, 180 (1995) wherein the Court again succinctly stated the de facto officer doctrine and found
that it did not apply in the case before it. The issue
presented was a challenge to the composition of the
Coast Guard Court of Military Review on the basis the
appointments to that Court violated the Appointments
Clause of the United States Constitution and trespassed on the appointment power of the executive. Id.
This was differentiated from decisions such as the misapplication of statutes providing for the assignment of
already appointed judges. Id. Thus, the challenge was
not that there was some technical defect in the title of
the Coast Guard Court judges, rather that they were
unconstitutionally appointed in the first place.
The Chapos erroneously argue that the Indiana
courts effectively suspended the operation of Ind. Code
Sec. 5-4-1-1.2(c)&(d). It bears repeating that the
Chapos’ challenge is not an appropriate issue for review by certiorari. Supreme Court Rule 10 ends saying

25
a “petition for a writ of certiorari is rarely granted
when the asserted error consists of erroneous factual
findings or the misapplication of a properly stated rule
of law.” The appropriateness of review notwithstanding, the Indiana courts’ decision in this case does not
suspend the operation of any law.
Ind. Code Sec. 5-4-1-1.2(c)&(d) provides in relevant part:
(c) An individual appointed or elected to an
office of a political subdivision must take
the oath required by section 1 of this
chapter and deposit the oath as required
by section 4 of this chapter not later than
thirty (30) days after the beginning of the
term of office.
(d) If an individual appointed or elected to an
office of a political subdivision does not
comply with subsection (c), the office becomes vacant.
The authority of a de facto official cannot be collaterally attacked. (App. pg.33a) (citing Carty v. State, 421
N.E.2d 1151, 1154 (Ind. Ct. App. 1981). Collateral attack here means that the authority of a public officer
cannot be attacked as a means of attempting to invalidate the public officer’s past actions. In Indiana the
“rule that the acts of an officer de facto, performed before ouster, are, as to the public, as valid as the acts of
an officer de jure, is too familiar to the profession to
need the citation of authority. The public is not to
suffer because those discharging the functions of an
officer may have a defective title, or no title at all.”

26
Parker v. State ex rel. Powell, 133 Ind. 178, 32 N.E. 836,
843 (1892).
The legal fact that a de facto officer’s actions may
not be collaterally attacked does not prevent the direct
attack of the de facto officer’s status in an appropriate
action. For example, the authority who appoints members to an Indiana county Plan Commission may appoint a different person to that office if a previously
appointed person fails to qualify. A contest between the
appointing authority and the de facto officer or between the officer de jure and the de facto officer would
result in the ouster of the de facto officer and would be
a direct attack upon their authority. Even then, however, the prior acts of the de facto officer, conducted
prior to the appointment of the officer de jure would not
be subject to collateral attack.
Thus, the Indiana courts’ decisions do not suspend
the operation of Ind. Code Sec. 5-4-1-1.2(c)&(d). To the
contrary, the Section would provide a strong basis for
an appointing authority or an officer de jure to attack
the qualification of a de facto officer and oust them
from the office they hold. However, until such time as
the de facto officer is properly ousted, “the acts of an
officer de facto, performed before ouster, are, as to the
public, as valid as the acts of an officer de jure.”
---------------------------------♦---------------------------------

27
CONCLUSION
For the foregoing reasons, the Jefferson County
Plan Commission respectfully requests the Court deny
the Petitioner’s Petition for Writ of Certiorari.
Respectfully submitted,
R. PATRICK MAGRATH
Counsel of Record
ALCORN SAGE SCHWARTZ &
MAGRATH, LLP
One West Sixth Street
Madison, Indiana 47250
(812) 273-5230
magrath@advocatelawoffices.com
Counsel for Respondent
Jefferson County Plan Commission

